Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
1125 Washington Street SE - PO Box 40100 - Olympia WA 98504-0100
October 7, 2019
Honorable Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
RE:

Arlene's Floit,ers, Inc. v. Washington, et al.: Docket No. 19-333

Dear Mr. Harris:
I am counsel of record for respondent State of Washington in this case. A response to the petition
for writ of certiorari is currently due October 15, 2019. Pursuant to Rule 30.4, the State requests
an extension to December 6, 2019, to file a brief in opposition. Respondents Robert Ingersoll and
Curt Freed join in this request for extension. Kristen Waggoner, counsel of record for petitioners,
has informed me that they have no objection to an extension to December 6, 2019.
We make this request for several reasons. First, we have been informed that there will be amicus
briefs in support of the petition, so we need adequate time to respond to those. Second, to avoid
needless repetition, we need time to coordinate briefing with the other respondents (Ingersoll and
Freed). Finally, the State of Washington will concurrently be preparing our brief in opposition in
In re Matter of Guerra, and our small team that handles U.S. Supreme Court matters will need
additional time to ensure that we can provide the Court quality briefing in response to both
petitions. Counsel for respondents Ingersoll and Freed are also preparing for argument in Altitude
Express, Inc. v. Zarda, No. 17-1623, and R. G. & G. R. Harris Funeral Homes, Inc. v. EEOC,
No. 18-107, before this Court and will be briefing an opposition in Fulton v. City of
Philadelphia, No. 19-123, during the time that this response is currently due.
Thank you for your consideration of this request.
Sincerely,

Z—
NOAH G. PURCELL
Solicitor General
360-753-2536

cc:

Kristen K. Waggoner, Counsel of Record to petitioners Arlene's Flowers, Inc. and
Barronelle Stutzman
Michael Jacob Ewart, Counsel to respondents Robert Ingersoll and Curt Freed

i,1

